Report No. D-2011-058            April 7, 2011




    Defense Finance and Accounting Service
         Has Made Progress in Providing
    Staffing Levels to Support the Mission in
                 Southwest Asia
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AAA                           Army Audit Agency
ARCENT                        U.S. Army Central Command
DDO                           Deputy Director of Operations
DFAS                          Defense Finance and Accounting Service
ESO                           Expeditionary Support Organization
SWA                           Southwest Asia
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704



                                                                                     April 7, 20 II

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                  CHlEF FINANCIAL OFFICER
               UNDER SECRETARY OF DEFENSE FOR PERSONNEL
                  AND READINESS
               COMMANDER, U.S. CENTRAL COMMAND
               ASSISTANT SECRETARY OF THE ARMY
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Defense Finance and Accounting Service Has Made Progress in Providing Staffing
         Levels to Support the Mission in Southwest Asia
         (Report No. 0-2011-058)

We are providing this report for your information and use. The Defense Finance and Accounting
Service (DFAS) Expeditionary Support Organization (ESO) made improvements in the number
ofDFAS personnel assigned to the mission in Southwest Asia. Specifically, as of October 2010,
DFAS ESO had filled 91 percent of the support personnel positions needed in SWA.

We made no recommendations and do not require a written response. Therefore, we are
publishing this report in final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
601-5868.



                                          f~a.!f/~
                                           Patricia A. Marsh, CPA
                                           Assistant Inspector General
                                           Financial Management and Reporting
Report No. D-2011-058 (Project No. D2010-D000FR-0182.000)                               April 7, 2011


               Results in Brief: Defense Finance and
               Accounting Service Has Made Progress in
               Providing Staffing Levels to Support the
               Mission in Southwest Asia
                                                        Army officials stated that they were generally
What We Did                                             satisfied with the level of service provided by
Our objective was to assess how well DFAS met           deployed DFAS personnel.
the staffing level needed to support the U.S.
Army Central Command (ARCENT) mission in                What We Recommend
Southwest Asia (SWA).                                   DFAS ESO officials took several new steps
                                                        designed to increase the quantity and quality of
What We Found                                           DFAS SWA volunteers. DFAS was in the
The DFAS Expeditionary Support Organization             process of implementing those changes during
(ESO) did not have adequate controls in place to        our audit. While we commend DFAS for taking
provide the requested number of qualified               action, it was too early to determine whether
DFAS personnel to support the mission in                their actions will improve the quantity and
SWA. Specifically, from July 2009 through               quality of the volunteers supporting ARCENT’s
May 2010, DFAS ESO partially filled the                 finance and accounting needs in SWA.
staffing needs in SWA by providing, on                  Therefore, we are not making any
average, 78 percent of the requested individuals.       recommendations at this time.
However, during our audit, DFAS ESO had
increased the number of DFAS personnel                  Management Response
assigned to the mission in SWA. As of October           We provided our discussion draft memorandum
2010, DFAS ESO filled 51 of the 56 positions,           to DFAS ESO on December 13, 2010.
or 91 percent.                                          DFAS ESO personnel provided technical
                                                        comments, which we incorporated into the final
DFAS ESO personnel stated that the reason they          memorandum report as appropriate.
were unable to fill all ARCENT-requested
positions was because they lacked enough
qualified volunteers. DFAS ESO officials
recognized this challenge and took action.
Specifically, DFAS ESO officials approved
financial incentives to increase the number of
qualified volunteers to support the mission in
SWA. In addition, the officials implemented a
training program designed to improve the skill
set of deploying DFAS personnel. Also,
DFAS ESO officials had modified the
application and selection process for filling
ARCENT requests.




                                                    i
Table of Contents

Introduction                                                                    1

      Audit Objective                                                           1
      Background on DFAS ESO’s Filling Army Requests for DFAS Support           1
      DFAS ESO Actions to Improve Internal Controls                             1

Finding. DFAS Has Made Improvements in the Quantity and Quality of
          Personnel Deployed to Support ARCENT                                  3

      DFAS ESO Accounting and Finance Support Is Improving                      3
      DFAS Has Taken Action to Increase the Quantity and Quality of Personnel
        Deployed to Support ARCENT Requests                                     4
      Army Officials Were Generally Satisfied and Saw Improvement in the
        DFAS Personnel Deployed to Southwest Asia                               6

Appendix. Scope and Methodology                                                 7

      Computer-Processed Data                                                   7
      Prior Coverage                                                            7
Introduction
Audit Objective
Our original objective was to determine whether the Defense Finance and Accounting
Service (DFAS) had established adequate controls to support the mission in Afghanistan
so that contract payments and DFAS-provided accounting services were accurate and
timely. In addition, our objective was to assess the adequacy of the level of DFAS
personnel assigned to the mission in Afghanistan.

We did not complete audit work related to DFAS controls over Afghanistan contract
payments and accounting services because of the prior and ongoing audit coverage being
performed by the Army Audit Agency (AAA), as well as the DFAS and Army actions
taken in response to prior audits. Instead, we focused solely on the adequacy of the
current level of DFAS personnel assigned to the mission in SWA. This report
summarizes our assessment of the adequacy of the current level of DFAS personnel
assigned to the mission in all of Southwest Asia (SWA), not just Afghanistan. See the
Appendix for a discussion of the Scope and Methodology and AAA prior and ongoing
audits.

Background on DFAS ESO’s Filling Army Requests for
DFAS Support
The DFAS Expeditionary Support Organization (ESO) was established in April 2008 to
assist Military Departments and commanders with their financial management
responsibilities during contingency operations. The DFAS ESO mission is to provide
direct support to deployed military finance units and Defense agencies. The DFAS ESO
is comprised of three divisions: Quality Assurance and Reporting, Tactical Support and
Planning, and Mobilized and Wounded Warrior Pay Management Office. The Tactical
Support and Planning Office is responsible for assisting, training, and augmenting
deployed finance and accounting military units during contingency operations.

DFAS ESO personnel stated that they receive requests from the U.S. Army Central
Command (ARCENT) to provide finance and accounting support in SWA. ARCENT
independently determines the number and location of deployed DFAS ESO personnel.
DFAS ESO personnel stated that ARCENT requested that they provide vendor pay
specialists and managerial accountants to provide finance and accounting support. In
general, DFAS personnel stated that ARCENT requests DFAS senior accountants who
are capable of making independent decisions and performing many duties throughout
their rotation. DFAS ESO relies on volunteers to fill ARCENT requests.

DFAS ESO Actions to Improve Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, implements DoD policy pursuant to Sections 1101, 3512, and 7501 of
Title 31, United States Code; and Office of Management and Budget (OMB) Circular No.
A 123, “Management’s Responsibility for Internal Control,” December 21, 2004, that
                                           1
requires an MICP be established to review, assess, and report on the effectiveness of
internal controls in DoD. DFAS ESO did not have adequate controls in place to provide
the requested number of qualified DFAS personnel to support the mission in SWA.
During our audit, DFAS ESO took actions that could increase the quantity and quality of
DFAS personnel supporting the mission in SWA. Because DFAS was in the process of
implementing the new actions during our audit, we were unable to determine whether
they improved the quantity and quality of DFAS volunteers supporting the mission in
SWA. We will provide a copy of the report to the senior official in charge of internal
controls for DFAS.




                                           2
Finding. DFAS Has Made Improvements in
the Quantity and Quality of Personnel
Deployed to Support ARCENT
From July 2009 through October 2010, DFAS ESO officials struggled to fulfill staffing
needs for finance and accounting support personnel in SWA. Specifically, from July
2009 through May 2010, DFAS ESO officials partially fulfilled the staffing needs in
SWA by providing, on average, 78 percent of the requested individuals. DFAS ESO
officials took action to provide an increased number of support personnel. As of October
2010, DFAS ESO personnel provided 91 percent (51 of 56) of the support personnel
needed in SWA.

DFAS ESO officials recognized that they were only partially fulfilling the finance and
accounting personnel needs of ARCENT and stated that they lacked enough qualified
volunteers for the requested positions. Therefore, DFAS ESO officials took corrective
actions to improve the quantity and quality of personnel willing to deploy to SWA.
Specifically, they

   •   approved financial incentives for deploying DFAS personnel,
   •   implemented a training program to increase skill sets, and
   •   modified the application and selection process for filling ARCENT requests.

Even though DFAS ESO personnel did not fill all of the needed positions, Army officials
were generally satisfied and saw improvement in the level of finance and accounting
support DFAS ESO volunteers provided. Because DFAS was in the process of
implementing the new actions during our audit, more time is needed to determine
whether those actions will improve the quantity and quality of DFAS personnel
supporting the finance and accounting needs of ARCENT in SWA.

DFAS ESO Finance and Accounting Support
Is Improving
DFAS ESO officials struggled to fulfill staffing needs in SWA, which included ARCENT
                                     requests to provide finance and accounting support
                                     and DFAS ESO self-identified positions. From
 As of October 2010, DFAS ESO        July 2009 through May 2010, DFAS ESO filled, on
 personnel had filled 51 of the 56   average, 78 percent of staffing needs in SWA.
 positions in SWA, or 91 percent.    Although DFAS ESO struggled to fill ARCENT
                                     requests and self-identified staffing needs, it
                                     increased the number of positions filled.
Specifically, as of October 2010, DFAS ESO personnel had filled 51 of the 56 positions
in SWA, or 91 percent.



                                            3
DFAS ESO personnel stated that the reason they were unable to fill all ARCENT-
requested positions was because they lacked enough qualified volunteers. ARCENT
asked DFAS ESO to provide managerial accountants to support finance and accounting
operations in SWA. However, managerial accountants are unique to the Army, and
DFAS did not have an equivalent job series. In general, the Army needed senior
accountants who were capable of making independent decisions and performing many
duties throughout their rotation. Therefore, in addition to the challenge of obtaining
volunteers, DFAS ESO had the challenge of bridging the gap between ARCENT
officials’ expectations for highly skilled DFAS volunteers and the current skill set of
DFAS volunteers. Figure 1 shows improvement in staffing the DFAS ESO personnel
needed in SWA to support ARCENT between July 2009 and October 2010.

    Figure 1. DFAS ESO Vacancies Filled




Note: The chart is intended to show the trend in DFAS support and we did not include all months. We
selected the beginning and ending months where the need for DFAS ESO personnel changed, along with the
corresponding number of DFAS ESO personnel provided.


DFAS Has Taken Action to Increase the Quantity
and Quality of Personnel Deployed to Support
ARCENT Requests
To meet the need for qualified volunteers, DFAS ESO officials took action to increase
the quantity and quality of personnel deployed to provide finance and accounting support
to ARCENT. Specifically, DFAS ESO officials approved financial incentives for
deploying DFAS personnel in order to recruit more volunteers, implemented a training
program to increase the skill set of individuals supporting ARCENT, and modified the
application and selection process for filling ARCENT-requested positions.




                                                       4
DFAS ESO Officials Approved Financial Incentives for Deploying
DFAS Personnel
In June 2010, DFAS ESO officials approved financial incentives for DFAS personnel
deploying to SWA. DFAS ESO officials recognized that if they did not provide a
financial incentive program, they would continue to struggle to fill positions and not meet
the needs of their customers.

A typical tour of duty for DFAS ESO personnel deployed to SWA was between 6 and
12 months. The incentive program provided that DFAS personnel were to receive a 15-,
20-, or 25-percent bonus for 6-, 9-, or 12-month deployments, respectively. DFAS ESO
personnel based the incentive bonuses on the deploying DFAS individual’s annual rate of
basic pay at the beginning of the service period. Because DFAS was implementing the
incentive program during our audit, we could not determine whether the incentives would
help increase the number of DFAS volunteers supporting ARCENT in SWA.

DFAS ESO Officials Implemented the DFAS Managerial
Accounting Class
To bridge the gap between the ARCENT officials’ expectations for highly skilled DFAS
volunteers and the current skill sets of deploying DFAS volunteers, DFAS officials
created and implemented the DFAS Managerial Accounting Class in December 2009.
This training course provided deploying DFAS personnel with knowledge of systems and
accounting practices used to support the mission in SWA. Between December 2009 and
May 2010, DFAS provided the training course to 28 individuals, who subsequently
deployed to SWA. Because DFAS was implementing the DFAS Managerial Accounting
Class during the audit, we could not determine whether the training increased the quality
of DFAS support provided to ARCENT.

DFAS ESO Officials Modified the Application
and Selection Process
DFAS ESO officials modified the application and selection process in June 2010 to more
efficiently identify qualified candidates to fill the staffing levels needed to support
ARCENT in SWA. Before June, DFAS ESO personnel stated they received resumes
through the ESO Web site and created a list of unscreened volunteers. DFAS ESO
officials stated they formed a three-person panel to review and rate the resumes. Based
on the decision from the panel, DFAS Human Resources processed the selected
candidates for deployment. Before modifying in the application and selection process,
DFAS ESO officials stated they had a list of 70 unscreened volunteers who had not been
reviewed to determine whether they had the qualifying skill set to support the ARCENT
mission in SWA.

DFAS ESO officials stated they changed the process in June 2010, requiring DFAS
personnel volunteering for the positions to submit applications through vacancy
announcements on the Office of Personnel Management Web site, usajobs.gov. They
stated that they no longer accept resumes through the ESO Web site. DFAS Human
Resources and usajobs.gov personnel reviewed the applications and identified candidates

                                            5
who meet the job skills required by DFAS ESO. When requested by DFAS ESO
management, DFAS Human Resources prepare a referral list of personnel who met the
minimum qualifications. As of October 2010, DFAS personnel stated that the new
process reduced the number of applications to be reviewed by the DFAS ESO panel from
70 unscreened volunteers in May 2010 to 12.

DFAS Human Resources and usajobs.gov personnel can reduce the number of volunteers
reviewed and reduce the time they take to identify qualified volunteers and deploy them
to SWA by identifying candidates who meet the job skills required. Because DFAS
changed the modified application and selection process during our audit, we could not
determine whether it would reduce the time to get qualified volunteers identified and
placed in theater.

Army Officials Were Generally Satisfied and Saw
Improvement in the DFAS Personnel Deployed to
Southwest Asia
      The Director, U.S. Army        Army officials expressed satisfaction and
      Financial Management           recognized the improvement in the level of service
     Command, expressed his          provided by deployed DFAS personnel.
    satisfaction with the level of   Specifically, the Director, U.S. Army Financial
  support and performance DFAS       Management Command, expressed his satisfaction
    personnel have provided to       with the level of support and performance DFAS
      Army finance personnel.        personnel have provided to Army finance
                                     personnel.

In addition, the ARCENT Deputy Director of Financial Operations, stated that he has
seen significant improvement in the caliber of DFAS individuals deployed to SWA since
DFAS officials began sending volunteers. He said that DFAS officials seem to have a
better understanding of the support the Army needs in theater, as shown by the training
provided before deployment to prepare personnel for in theater conditions.




                                           6
Appendix. Scope and Methodology
We conducted this audit from April 2010 through December 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our objectives.

We reviewed summary data and detailed staffing metric data, and we interviewed DFAS
and ARCENT personnel to determine whether DFAS was providing adequate finance
and accounting support to ARCENT. Specifically, we reviewed the number of volunteers
DFAS ESO deployed to SWA from July 2009 through May 2010 and in October 2010,
and we compared this to the number of personnel needed in SWA, which includes both
ARCENT-requested personnel and DFAS self-identified positions. In addition, we
reviewed the actions DFAS ESO officials took to increase the quantity and quality of
personnel deploying to support ARCENT.

We interviewed DFAS-Rome personnel and reviewed lists of personnel that took the
training to determine whether the DFAS Managerial Accounting Class was provided to
DFAS personnel deploying through the DFAS ESO. We reviewed the list of DFAS
personnel who attended the training between December 2009 and May 2010, and we
compared it to all DFAS personnel who have deployed to SWA through DFAS ESO. In
addition, we reviewed the DFAS Rome controls over retrograde payments for contracts
in theater. We met with Army Audit Agency (AAA) to discuss the detailed testing they
were performing related to the timeliness and accuracy of DFAS payments made in
SWA. Because of the audits the AAA was performing, we did not perform detailed
testing of the DFAS payments in SWA.

Computer-Processed Data
We used computer-processed data obtained from the DFAS Deputy Director of
Operations Dashboard (DDO Dashboard). To assess the reliability of the data, we used a
list of DFAS personnel deployed to SWA between December 2009 and May 2010 and in
October 2010 to calculate the total deployed personnel for a given month. We compared
the number of DFAS personnel deployed for the month to the corresponding data in the
DDO Dashboard. We verified the number of ARCENT-requested and DFAS ESO self-
identified positions reported on the DDO Dashboard. We determined that the computer-
processed data were sufficiently reliable for the purpose of this audit.

Prior Audit Coverage
During the last 5 years, the DoD Inspector General (DoD IG) and AAA have issued four
reports related to internal controls over DFAS overseas contingency operations.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.
Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
Internet at https://www.aaa.army.mil/.



                                            7
DoD IG
DoD IG Report No. D-2008-098, “Internal Controls Over Payments Made in Iraq,
Kuwait, and Egypt,” May 22, 2008

Army Audit Agency
AAA Report No. A-2010-0062-ALL, “Audit of Controls Over Vendor Payments -
Southwest Asia (Phase II),” March 16, 2010

AAA Report No. A-2010-0057-ALL, “Audit of Controls Over Vendor Payments -
Southwest Asia (Phase II),” February 24, 2010

AAA Report No. A-2010-0012-ALL, “Audit of Controls Over Vendor Payments -
Southwest Asia (Phase II),” January 5, 2010




                                         8
